No. 20-512

INTHE

hpmnt C!tnurt nf tlJt lttttth bits
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,

Petitioner,

V.

SHAWNE ALSTON, et al.,

Respondents.

ON WRIT OF CERTIORARI TO THE

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE

I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 19th day of March, 2021, all parties required to be served have been served copies
of the Reply Brief for Petitioner in this matter by overnight courier to the address
below.
LINDA T. COBERLY
WINSTON & STRAWN LLP

35 West Wacker Drive
Chicago, IL 60601
(312) 558-8768
lcoberly@winston.com

WILMER CUTLER PICKERING

HALE AND DORR LLP

1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

